                                       NATIONAL RAILROAD PASSENGER CORPORATION
                                             O)JmcE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS
                                                    CLOSING REPORT


                 DATE:                           June 30, 2009

                TITLE:                         . ~Kicl(b!\cl(s

                CASE NUMDER:                    06·008

                PREPARED BY:


                 ALLEGATION:
                           The Office of Inspector Oeneral, Of1ice of Investigations (oro.OJ) I'cceived an
                ·allegation from· an anonymous somce that a                                            had
                i'eceivcd a' motol'cycle from an Asbestos abatement contractor, 'fhe allegation was
                 slibstantiqled,
                    ,   .'
                       '..
                      " During                                                       oro-or A.gents also
    (           discovered thnt                                               or both had knowledge that
                the two companies <lIinniiHir.a p:roposals          Wc:ewiWl<cn Substation project wel'e
                owned by the same individuol.

                FINDINGS OF FACT:
                          During the inv()sligation, OIG·Ol ig~nts (Agents) conducted intcrviews with
                P.n~ineering: Fire & Life Safety, Stumpy :Yamaha, Unipl'o Inc. (Unipro) and UlIlvel'sai
                Contractors (Universal) personncl; obtah'led documentation /i'Om Enginecring Structures,
                Fire & Life Safety, Procurement mid ACCOlUlts PaYAble; And, issued 8ubpoen~s to Stumpy
                YftllIllha and Unipl'c',

             Motorcvcle P\lI'chasQ
                     OIG-O! Agents conducted an illVestigation and discovered that in May 2002,
            • • • • • • • • • p\\tchased a Yamaha TTR·90 motorcycle f01' an Amtrak
             employee subsequent ·to subm itling two (2) separate proposals to said Amtrak employee
            to obtain a service contract to pcrform work on the electrical bUilding at the
             Substation. During the investigatioll, OIG·or Agents identified
            _                                                                  of the ".~ ..• ,.
            r;;;;;;;;".- is
(




        ,   "       ". I   r   '1111
                                                                                        IIt~M\~7   (fll"\?   ./   'In ...
    (            contncted _        about the motorcycle. • • • told Olo-O! Agents that he and
                 _          drove separately to Stumpy Yamaha ill _           to purchase the
                 motoroycle.

                         010 .. 01 Agents identjfied two (2) separfit6 bills of sale for the Yamaha TTR·90
                  motorcycle purchased by_.~ents discovered that both bills of sale were
                 from Stumpy Yamaha located i n _ OIG-OI Agents obtained documentation
                 from $t\lmpy Yamaha that revealed on May 16, 2002,
                 TfR-90 motorcycle
                 check. According to
                                                       and
                                                    . documentation, I
                 to pllrchase the TTR-90 motorcycle from Stumpy Ya\naha.
                                                                              u s e d _. check

                                  indicated that the TTR-90 motorcycle was delivered to
                                                                                                    li_
                                                                                        purchased a Yamaha
                                                                   paid fo)' tha TTR-90 motorcycle with a

                                                                                                    Yamaha'

                                                        _tesides at tJ\C above mentioned

                         _         admitted to OIG·OI Agents that
                 with the motorcycle purchase back ill May 2002.
                 they returned to Stumpy Yamaha.
                 situntion to a StlUlIPY YamahQ.representatlve and
                 of sale fol' the motorcycle.

                     Subsequent to 8n intcrview with OIG·or Agents, _produced a bilI of sale
             from Stumpy Yamaha, dated May 16,2002, for the purchase of a 1v fR·90 motorcycle.
(            After comparing both bills of sale and noting inconsistencies with_'s document,
             OlG-Or Agellts determined that            '9 bill of sale, dated May 16, 2002, was the
             original bill of sale, while_'s bill of sa1o, dated May 16,2002, was obtained from
             Stumpy Yamaha in June 2006, subsequent to an intervIew with OIG-OJ Agents.

                    During an interview,                  010-01 Agents tJlat he did not know how
            _        paid for the motorcycle.                   Agents that he reimbursed _ i n
            c~sh for the MI price of the                          Agents noted that _      initially
            told' OlG-OI Agents that he had purchased tho motorcycle from II private owner for his
            son approximately fom (4) yeurs ago. _could not remember the make or model
            of the motorcycle ptll'chasc; however, ho thought it was n Yamaha.

                   During an interview, OIG-or Agents a.sked _ i f _ h a d paid him nny
            money tOlVards tho purchase of the motOl'cycle.         responded that _    had not
            made any payments to him               to the purchase of the motorcycle. _told
            Agents that he had asked                     times about the money in ~wovel',
            _ n e v e r paid any money                              stopped asking _     for the
            money.

            Proposal Submissions:

                   oro-or Agents identified       _as   the pdncipnl oWller of Unipro, Ino., an
            asbestos abatement company, and Univorsal Contractors, a general contrncting cOlUpany.




        r   .,       I hi   r   '(\~I
                                                _n
                    According to ProcUl'ement recor~niversal Contractors were
           the only two (2) proposals submitted to _ _ _ for the electrical building
           asbestos abatement work. OIG-OI Agents noted that Unipro, Ino. submitted Inoposnl
          II                 dated May 7, 2002, to            the amount of $75,385 to perfo~tn
          as.b.e.st.os.a.batement and general contracting work on the electrical building at the
          •                SUbstation. The                                Universal Contractors
          submitted pl'oposal ~ dllted                                     amount of $86,550 to
          pelform the same work on the eleotrical                               Substation. The
          proposal was signed by

                 Procurement records revealed that
          prepared a Scope of Worl< document, dated May             for the
          and Unlpm, 1m'. had been recommended as the soJe sonrce contractor.

                 Procurement records revealed that                         prepal'l:d a Material
          Requisition, dated May 16, 2002, for the                        V1U[J1V,  luc. had been
          suggested as the vendor of choice.

                 OIO-OI Agents noted that the date on the Scope of Work and the Material
          Requisition doouments coincided with the pmchase ofllie motorcycle on May 16,2002.

                          records revealed that in August 2002, . . . . . . . . . . ..
                                     discussed the requirements needed (I.e., complllly polioy
                                           approved             issue a Purchase Order fox the
                                  being contacied by
                                prepar<:d and submitted a           to
                               AUI,us~2002. OIO·OI Agents noted that              Contractors
                       was          fi'om Postmark Phis to   _on         August 16, 2002, via
      Federal Express. OIG Agents also noted that Universal Contractors proposal II_was
      shipped from Postmark Plus t o _ on A\lgust 16,2002, via Federal EXpress .

            • • told Agents that he used to own II mail and parcel business called
      Postmark Pins located i n _ ~old the business in 2002. _told
      Agents that        Iwas n customer when he owned Postmark Plus.

                • • • told OlO-or Agents that he was neither an employee of Unipro, Inc nor
     ".had
     an employee of Universal Contractors; however, he was a suboontractor t o _ .
                considered working as a Vice President for
     never materialized. _
                                                                  , however, the OlJportllnity
                               could not recalI.when tbis opportunity was presented to him.

             _told A.gents that he would perform d\llies such as type proposals, prepare
     invoices 01' draft memo(andu1l1s. _       told OW-OI Agents that he never cond\lcted an
     estimate for a Ill·oject. _     told oro-or Agents that he could not recall signing any
     othel' proposals, invoices Or memorandums for _           as a suboontractor Ol' Vice
     Prosidellt. oro Agents noted that Universal Contractors l>)'op08alll_, dated August
     16, 2002, was signed by              addressed to _ .                           .



1.   'I      II..,I   r   'nil
                                                                                                          \



                  Based on the qtiestionable information and documentation
                                       provided to               ,
                           dated               II, 2002, to Unipro,     to pcrfor,m
           work Oll the elcct~'ica\ building at the             Substation.

                  OlG-Ol Agents noted that the Universal Contractors proposal              11_  was
          s)lbmitled in August 2002 to meet Procurement l'eq[IIi\'en:lents e., approved bidders);
          however, it is unclear                                              per~ormel contncted
          _       , oro-or Agents noted that                                 Jnille""al' Contractors
          proposal Ii       on his OWJl or received instluctiOJlS from
                         porsollllel.




          RECOMMENDATIONS:

          Management should:
(
          L      Take appropriate action against _              based Oil the Findings of Fact,
                 specifically, his less than tMhfu\ explanation of the motorcycle purchase and his
                 validation of the motorcycle purchase with an altered bill of sale.

         2.      Take appropriate action against Engineering persOIUlei based     Oil   the Findings of
                 Fact for the Universall)rOposal submission.

         3.      Instruct                       personnel 10 follow Corporate Policies and
                 Procedures, as well as Procmemont Policies and Procedures, when submining
                 proposals.

        4.       Consider debarment ofUnipro ulld Ul1iversal fi'om any future Amtrak contracts.

         S.      Consider debal"llIent of nlly othcr _         companies fi'om any future Amtr~k
                 contracts.


        MANAGEMENT'S RESPONSE:

               Engineel'illg Senior Management brought administrative charges agllinst_
        based OJI the Refenul Repolt's Findings oiFact section.             all administratIve
(       hearing. Subsequent to the administrative hearing,                         Hearing




    G   'j '   Ib/~   'OM
                                                                                              ,I ,



    (            Officer, prepared u decision letter, dated April 28, 2009, that assessed the discipline as
                 follows: dismissal in all capacities, effective immediately,

                                                                                        instnlcted all
                                                                               Ethics policy,

                         Engineering' Seniol' Manngen1ent personnel in co))j~mction with the Procuremont
                 and Law Departments are in discussions abollt the disbarment o f _                  and
                 allY other companies owned 01' operated by


                 olG-or CONCLUSION:
                   Based on the dismissal of_and Engineering's response to the other
             recommendations, this case should be closed pending any further developmonts.




             SupervisOl"S Signature:

(

             Dexmty Inspector GCllol'alfColtnscl's SignntlU'c: ,




        o   'J       IIII,'OM                                                                WVIJO:l     ~OO1   'J   'Inr
